No. 20-6957
IN THE

Supreme Court of the United States
ALFRED PAUL CENTOFANTI, III,
Petitioner,
v.
DWIGHT W. NEVEN, WARDEN, et al.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
PROOF OF SERVICE
AARON FORD
Attorney General of Nevada
HEATHER DIANE PROCTER*
Chief Deputy Attorney General
State of Nevada
Office of the Attorney General
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HProcter@ag.nv.gov
* Counsel of Record
Counsel for Respondents

PROOF OF SERVICE
I, Heather Diane Procter, a member in good standing with this Court
authorized to file a Brief in Opposition on behalf of Respondents, hereby certify that
on this 22nd day of March, 2021, a copy of Respondents’ Brief in Opposition was
served by e-mail to:
JEREMY BARON
Assistant Federal Public Defenders
411 E. Bonneville, Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Fax: (702) 388-6261
Counsel for Petitioner
All parties required to be served have been served.

/s/Heather Diane Procter
Heather Diane Procter

